\

NO. 19-1446-CV

SUPREME COURT OF THE UNITED STATES

ORIGINAL
FILED
DEC 1 1 2020
sup1?eEm°Fcoijrt,LuFsK

DENISE JACKSON
PETITIONER,
V.

WELLS FARGO HOME MORTGAGE,
RESPONDENT.

PETITION FOR A WRIT OF CERTIORARI TO
THE UNITED STATES COURT OF APPEALS
FOR THE SECOUND CIRCUIT

DENISE JACKSON-PRO SE
215 MAPLE STREET
BROOKLYN, NY
11225
PHONE: 718-576-8596
EMAIL: GODSPROPERTY215@GMAIL.COM

RECEIVED
DEC 1 6 2020
©FFICE OF THE CLERK
SUPREME COURT U-S.

'>
LIST OF PARTIES

1 UNITED STATES DISTRICT COURT FOR THE EASTERN DISTRICT OF NEW YORK
HONORABLE JUDGE, PAMELA CHEN
HONORABLE MAJISTRATE, STEVEN TISCIONE
2 UNITED STATES COURT OF APPEALS FOR THE SECOUND CIRCUIT
HONORABLE JUDGE: DENNY CHEN
HONORABLE JUDGE: RICHARD J. SULLIVAN
HONORABLE JUDGE: WILLIAM J. NARDINI
3 WELLS FARGO HOME MORTGAGE:
ATTORNEY ANDREW B. MISITE % REED SMITH

4 HOGAN LOVELLS US LLP:
ROBIN L. MUIR, ASSOCIATE
LISA FRIED

FEDERAL QUESTIONS

Background
I submitted a preponderance of documentary evidence that proves that I was not only qualified
for all three federally funded programs the approval was generated by Wells Fargo, the FHA/
HUD.
Is evidence the rule of law a part of our constitution ?
Does the court have the right to choose who benefits from the constitutional protections?
Is the court supposed to rule in my favor because my evidence substantiates my complaint?

Background
My intinal complaint was a proper and valid complaint siting discrimination in federally
funded programs. A meeting was scheduled on October 23, 2015 where I was not
consulted, notified or invited. No where on the calendar was it ordered that anyone was
Advise me of the meeting nor did anyone call my home. Then the judge grants Wells
Fargo a motion to dismiss when they notified me of the date and time I would have produced
my evidence, the 9 page approval letter which I stated in my complaint, and Wells Fargo would
not have been granted a motion to dismiss. The meeting was held on October 29,2015 ,6 days
later.
Is this a violation of due process rights for the civil proceedings?
Is this a violation of the FRCP ? I’m supposed to have 14 days notice before scheduling a
hearing that I have proper time to prepare?
Was the Judge suppose to confirm the hearing date with me before scheduling the hearing
To ensure I was available?
Is this fair and impartial treatment or discriminatory treatment?
Are the Judge and the opposing side allowed to communicate without my presence?

TABLE OF AUTHORITIES

CONLEY V. GIBSON 355 U.S. 41 AT 48 (1957)
HAINES V. KERNER.404 U.S. 519 (1972)
JENKINS V. mCKEITHEN, 395 U.S. 411,421 (1959); PICKING V. PENNSYLVANIA R. CO, FED
2ND; PUCKV. COX, 456 2ND 233
BOYD V. UNITED STATES,116 U.S. 616 AT 635 (1885)
JUSTICE BRADLEY,
“... IT IS THE DUTY OF THE COURTS TO BE WATCHFUL FOR THE CONSTITUTIONAL
RIGHTS OF THE CITIZENS, AND AGAINST STEALTHY ENCROACHMENTS THERON,
THEIR MOTTO SHOULD BE OBSTA PRINCIPIIS.”
ELMORE V. Me CAMMON (1986) 640 F. SUPP. 905
THE RIGHT TO FILE A LAWSUIT PRO SE IS CONSTITUTIONAL LAW!
DUNCAN V. MISSOURI, 152 U.S. 377,382(1894)
DUE PROCESS UNDER THE LAW EQUAL PROTECTION OF THE LAW.
BUTZ V. ECONOMOU, 98 S. CT. 2894 (1994); UNITED STATES V. LEE, 106, U.S. AT 1 S. CT.
AT 261(1882)...” NO MAN OR WOMEN IN THIS COUNTRY IS SO HIGH THAT HE IS ABOVE
THE LAW”...” NO OFFICER OF THE LAW MAY SET THE LAW AT DEFIANCE WITH
IMPUNITY”.
...” ALL GOVERNMENT FROM HIGHEST TO THE LOWEST ARE CREATURES OF THE LAW,
AND BOUND BY THE LAW”.
NOTE: COPIED VERBIAGE; WE ARE NOT LAWYERS.]...” IT CAN BE ARGUED THAT TO
DISS A CIVIL RIGHTS ACTION OR OTHER LAWSUIT IN WHICH A SERIOUS FRACTAL
PATTERN OR ALLEGATION OF A CAUSE OF ACTION HAS BEEN MADE WOULD IT SELF
BE VIOLATION OF PROCEDURAL DUE PROCESS AS IT WOULD DEPRIVE A PRO SE
LIGENT OF EQUAL PROTECTION OF THE LAW VIS A VIS PARTY WHO REPRESENTED BY
COUNSEL”.

TRINSEY V. PAGLIARO D.C. (1964) 229 F. SUPP 647” STATEMENTS OF COUNSEL IN
BRIEF OR ARGUMENTS ARE NOT FACTS AND THEREFORE INSUFFICIENT FOR A
MOTION TO DISMISS OR SUMMARY OF JUDGEMENT”.

PLATSKY V. C.I.A./ F.B.I “ JUDGE MUST TELL A PRO SE LITIGANT HOW TO AMEND
HIS LAWSUIT SIO IT CAN GO FORWARD”.

CONSTITUTIONAL PROVISIONS
14TH ADMENDENT TO THE CONSTITUTION- EQUAL RIGHTS
7TH ADMENDENT UNDER BILL OF RIGHTS- RIGHT TO A JURY TRIAL

STATUTORY PROVISIONS
FRAUD ON THE COURT
42 U.S.1981- EQUAL RIGHTS UNDER THE LAW42 U.S.2000d-1 FEDERAL ASSISTED PROGRAM
18 U.S. 242 DEPRIVATION OF RIGHTS UNDER COLOR OF LAW
18 U.S.C. 10G-SEC1001- MAKING FALSE STATEMENTS/ CONCEALING
INFORMATION
FEDERAL HOUSING ACT LAW- TITLE 8 OF THE CIVIL RIGHTS OF 1968SECTION 805-REDLINING/ EQUAL CREDIT OPPORTUNITY ACT-3605/
3602 /3631

RULES
FEDERAL RULE OF CIVIL PROCEDUE # 1 SPEEDY DETERMINATION
FEDERAL RULE OF CIVIL PROCEDURE # 8- PLEADING INSTRUCTIONS/
STANDARD.
FED R. APP. RULE 40- PANEL -REHEARING
LOCAL APP. RULE 40.1-

FED R. OF APP. # 41- ISSUEANCE OF MANDATE

STATEMENT OF JURISDICTION

THIS IS THE PROPER JURISDICTION BECAUSE IT DERIVED FROM THE U.S. FEDERAL
COURT OF THE EASTERN DISTRICT OF NEW YORK . THE UNITED STATES COURT OF
APPEALS OF THE SECOND CIRCUIT DATE OF LAST DECISION IS JULY 14, 2020.
THIS IS TIMELY RULE # 14 WITH THE EXTENSION DUE TO THE COVID-19, PANDEMIC.
THE COURT DRAWS ITS JURISDICTION FROM 28 U.S.C.1254(1).

INTRODUCTION

Honorable Justices of the U.S. Supreme Court,
I Denise Jackson, Petitioner Pro Se, respectfully request your consideration to review my case
case #19-1446-cv decision from the U.S. court of appeals second circuit dated April 24,2020.
This is a presidential case that not only affects me, but it affects many other american citizens
as the constitutional protections that I was denied, as well as being a very serious threat to our
constitution and our democracy.
The District Court dismissed my complaint three and a half years in the pleading stage for 12b6
And concluded I was not qualified for 2012,2013, or 2014 loans excluding all the vital
documentary evidence that clearly states I was approved and qualified by the defendants wells
Fargo own underwriters, federal housing administration, as well as hud endorsement and
approval. I further submitted evidence from the U.S. Treasury eligibility for the modification
Federal program. All the loans were federally funded loan programs in which I was qualified
And approved.
I had two private lawyers that did not protect my rights and defend my complaint.They refused
to submit and argue my very important documentary evidence which was submitted to the
district court that was not examined, argued or presented to the Appellate Court. The appellate
Court did not come to the right finding of fact without all of my evidence that I submitted to the
District Court.

Immediately following the termination of the lawyers I submitted 2 motions to the appellate court
Pro SE, including the hard copy of the termination letter, and the response timely and prior to
the issuance of the mandate showing the vital evidence as wells as when and where it was
submitted to the District Court on the calendar as well as copies of my submissions that shows
The same evidence to the appellate court.
I”m trying to find a competent professional experienced Attorney to represent me in this court
but it has been difficult as we are in the middle of a pandemic, shut down and many of the
Lawyers don’t have offices to work from and I can’t interview face to face. I am high risk for the
Virus and I must stay safe for my family. I will retain a lawyer to take over this case as soon as
possible.
I will argue the decisions of the District Court, as well as the decision of the appellate to prove
The violations of the federal laws, deprivation of the constitutional laws as well as violation of
The rule of law which is evidence. I will argue the error of the laws has been made and justice
has not been serviced.

STATEMENT OF CASE
ON AUGUST 27TH 2015 I DENISE JACKSON- PRO SE FILED A LAWSUIT AGAINST
WELLS FARGO HOME MORTGAGE FOR DISCRIMINATION IN FEDERALLY FUNDED
PROGRAMS.
WITHIN MY INITIAL PLEAD PAGE #2 I ADVISED THE COURT OF MY EVIDENCE A 9
PAGE APPROVAL LETTER GENERATED BY THE DEFENDANT WELLS FARGO HOME
MORTGAGE.
ON SEPTEMBER 3, 2015 MY CASE WAS REASSIGNED TO HONORABLE JUDGE, PAMELA
CHEN.
OCTOBER 14, 2015 WELLS FARGO ATTORNEY, ROBIN MUIR, WROTE A PERSONAL
LETTER TO JUDGE CHEN, WHICH I NEVER SAW AND NEVER RECEIVED A COPY OF
PAGE ONE, MS. MUIR, PREJUDICE THE JUDGE BY STATING” PLAINTIFF IS AN
INDIVIDUAL RESIDING IN NEW YORK STATE”. .. WELLS FARGO IS A NATIONAL
ORGANIZATION BANKING ASSOCIATION ORGANIZED IN THE UNITED STATES
OF AMERICA.” EXHIBIT (I) MS. MUIR THEN PROCEEDED TO MAKE FALSE STATEMENT
TO THE COURT BY ADVISING THE COURT THAT I WAS IN DEFAULT ON MY MORTGAGE
PAGE # 3 OF THIS 3 PAGE LETTER AND MY CLAIM FOR SECTION 3605 FEDERAL
HOUSING LAW DID NOT COUNT AS A REAL ESTATE TRANSACTION”.
THIS IS DEMONSTRATIVELY FALSE, SEE COPY OF MY MORTGAGE PAYMENT CHECK
ATTACHED TO THIS EXHIBIT DATED JUNE 2017 $ FOR 2,900, TO WELLS FARGO HOME
MORTGAGE. THIS DEFAMING MY CHARACTER. I WAS NEVER DEFAULT ON MY
MORTGAGE ACCOUNT. THIS WAS TO DISQUALIFY THE F.H.A. CLAIM 3605.

THERE WAS A PRE CONFERENCE SCHEDULED I WAS NOT CONSULTED
ABOUT,INVITED I WAS NOT NOTIFIED OF THE MEETING, NOR WAS I GIVEN THE
MINUTES OF THIS HEARING OR THE OPPORTUNITY TO PRESENT MY 9 PAGE LOAN
APPROVAL DOCUMENT. I WAS DEPRIVED OF MY RIGHT TO BRING FORTH MY
EVIDENCE TO DEFEND MY COMPLAINT. WELLS FARGO WAS GRANTED A MOTION TO
DISMISS.

I ATTENDED A SETTLEMENT CONFERENCE PRIOR TO SUBMITTING MY OBJECTION TO
WELLS FARGO’S MOTION TO DISMISS. I PRESENTED ALL OF MY DOCUMENTARY
EVIDENCE TO THE MAGISTRATE JUDGE, HONORABLE STEVEN TISCIONE, BUT WELLS
FARGO WAS ALLOWED A MOTION TO DISMISS. MY EVIDENCE THE APPROVAL
DOCUMENT PROVED THE FEDERAL LAWS WAS VIOLATED.
FEBRUARY 8, 2016 I SUBMITTED MY OBJECTION WITH MY PREPONDERANCE OF
EVIDENCE, EXHIBIT 1-5 ON THE CALENDAR, BUT THE DOCUMENTS WERE NOT

CALENDARED TITLED, AS EACH DOCUMENT HAS BOLD TITLE TRUTH IN LENDING
DOCUMENTS FOR BOTH 2012, AND 2014 LOANS, AS WELL AS THE U.S. DEPARTMENT
OF TREASURY QUALIFICATIONS FOR THE 2013 MODIFICATION.
ALL OF THIS DOCUMENTARY EVIDENCE WAS RESTRICTED ON THE EFILE SYSTEM AND
NO ONE COULD VIEW MY EVIDENCE. NO COURT ORDER IS ON THE CALENDAR, AND
MY EVIDENCE, EXHIBIT 1-5 WAS MISSING FROM THE EFILE SYSTEM FOR 36 DAYS, IT'S
TIME STAMP RECEIVED DATE DID NOT SHOW UP UNTIL MARCH 14,2016 THE SAME
DAY THAT WELLS FARGO BRIEFED MOTION TO DISMISS MARCH14, 2016 WAS
RECEIVED AND ENTERED THE SAME DAY. MY EVIDENCE WAS CONCEALED,
TAMPERED WITH, SPOILED BY THE COURT.
MY CASE SAT IN THE FEDERAL IN THE PLEADING STAGE FOR 3 1/2 YEARS WHILE THE
STATUE OF LIMITATION RAN OUT ON 2012 LOAN, AND THE 2013 MODIFICATION.
MY CASE WAS DISMISSED IN 2019 FOR 12 (B)(6) WHILE THE MAGISTRATE JUDGE
CONCLUDED I WAS NOT QUALIFIED FOR THE 2012, 2013, AND PROBABLY 2014
LOANS WITHOUT SHOWING THE EVIDENCE SUBMITTED DID NOT SUPPORT MY
QUALIFICATION NOR HAD ANY OTHER EVIDENCE TO SHOW I WAS NOT QUALIFIED.
SEE APPENDIX (B) 1 PAGE MAGISTRATE’S CONCLUSION, BUT FAILED TO SHOW HOW
MY APPROVAL DOCUMENTS GENERATED BY WELLS FARGO, FHA, AND HUD, DID NOT
VALIDATE, SUBSTAINIATE MY COMPLAINT.
I RETAINED A PRIVATE ATTORNEY, PETER SVERD, REAL ESTATE MANHATTAN NEW
YORK , TO DEFEND MY CASE IN THE APPELLATE, BUT HE FAILED, AND REFUSED TO
PRESENT MY TRUTH IN LENDING FEDERAL DOCUMENTS, MY GOOD FAITH ESTIMATE
DOCUMENTS, MY DEPARTMENT OF TREASURY QUALIFICATION DOCUMENTS AND
ARGUE THEM IN THE APPELLATE COURT. MR. SVERD DIDN'T EVEN ADVISE THE COURT
THAT THE EVIDENCE WAS NOT ON THE EFILE SYSTEM, AS HE TOLD ME , AND THAT
THE EVIDENCE EXISTED, HE WAS GIVEN ALL MY EVIDENCE WHEN I RETAINED HIS
SERVICES. MR. SVERED, WHEN THE JUDGE ASKED HIM WAS I QUALIFIED, HE FAILED
TO SAY YES, AND PRESENT THE APPROVAL DOCS GENERATED BY THE DEFENDANT
WELL FARGO. MR. SVERD, REFUSED TO MEDITATE AT THE 3 HOUR MANDATORY
MEDIATION, HE NEVER ASKED WELL FARGO ATTORNEY ONE QUESTION. MR. SVRED
RAN OUT OF THE MEDIATION LESS THAN 10 MINUTES OF ARRIVING, AND REFUSED TO
RETURN TO FACE WELLS FARGO ATTORNEY FACE TO FACE TO EFFECT A
RESPECTFUL SETTLEMENT.
MR. SVRED, ABANDONED ME AFTER THE APPELLATE COURT DECISION, AND
REFUSED TO REQUEST A REHEARING TOLD ME I WOULD NOT BE SUCCESSFUL IF I
REQUESTED
KNOWING THE APPELLATE DECISION WAS MADE WITHOUT EXAMINING MY EVIDENCE
TO SHOW WELLS FARGO APPROVED MY LOANS, BUT REFUSE TO CLOSE.
SEE EXHIBITS (I) 2 EMAILS REQUESTING HIM TO ADD MY EVIDENCE PRIOR TO THE
ORAL ARGUMENT.

I HIRED ANOTHER ATTORNEY, MR. JONATHAN ROSENBERG, AN APPELLATE COURT
ATTORNEY,AFTER PRESENTING A MOTION FOR REHEARING, PRO SE, DATED MAY
29,2020 TO THE APPELLATE COURT WAS GIVEN UNTIL JULY 13, 2020 TO PRESENT THE
PETITION.
MR. ROSENBERG RECEIVED A COPY OF THE MOTION WITH MY EVIDENCE
PRESENTED TO THE APPELLATE, SAID HE WOULD PERFECT AND ARGUE THE
EVIDENCE, BUT AGAIN HE DID NOT PRESENT THE EVIDENCE, BUT WROTE A
PETITION FOR PRO SE RIGHTS, KNOWING IT WOULD FAIL. HE PRESENTED IT TO THE
COURT WITHOUT MY PERMISSION CONSENT KNOWLEDGE ON THE DEADLINE, AFTER
HE BLEW UP IN AN ANGRY VIOLENT RAGE WHEN I WOULD NOT EXCEPT AND AGREE
TO HIS PETITION THAT DIDN'T MENTION THE WORD EVIDENCE. I HAD TO FILE A
FORMAL COMPLAINT WITH THE AUTHORITIES BECAUSE HE THREATENED HARM TO
ME.
I ADVISED THE APPELLATE COURT ON JULY 13, 2020, THE DEADLINE AND SUBMITTED
A HARDCOPY OF THE TERMINATION LETTER AND SUBMITTED ANOTHER MOTION FOR
A STAY OF THE MANDATE ON THE 20TH, OF JULY, PENDING MY WRIT TO THE
SUPREME COURT JULY 20, 2020.

JULY 21, THE MANDATE WAS ISSUED, BEFORE THE EXPIRATION OF THE 7TH DAY
AS DICTATED BY THE FRAP#41, AND AFTER MY PRO SE MOTION FOR STAY WAS
ci iDfcAn"Tcrr\
to tuic addci i atc nrv idt dcai icctikia a otav
t i
i \J i i ii_ Or r
i i_ wui\ i i\uwui-vj i ii^iu r\ umi.

uuusvii

THE MANDATE WAS ISSUED PRIOR TO THE 7TH DAY IN VIOLATION OF FRAP#41
THERE WAS NO COURT ORDER ISSUED ORDING THIS MANDATE BEFORE THE
EXPIRATION OF THE 7TH DAY.

REASON FOR GRANTING PETITION
I'M ASKING THE SUPREME COURT TO INTERVENE IN MY CASE BECAUSE THE
CONSTITUTION LAWS, AND OUR DEMOCRACY AS WE KNOW IT, IS THREATENED
WHEN ALL AMERICAN CITIZENS IS NOT ALLOWED TO BENEFIT FORM THE
CONSTITUTIONAL, STATUTORY PROTECTIONS AND PROVISIONS.
THIS IS OF NATIONAL IMPORTANCE, DECISIONS BY THE FEDERAL APPEAL AND
DISTRICT COURTS ARE SPLIT AND INCONSISTENT, CONFLICTING AS WELL AS
CONTROVERSY AS DECISIONS FROM SOME STATES GOT RELIEF FROM LAWSUITS
AGAINST WELLS FARGO AND OTHER BANKS, BUT OTHER PEOPLE IN OTHER STATES
RECEIVED NO RELIEF IN LAWSUITS FROM THEM RIGHTS BEING VIOLATED. PEOPLE
NEED TO FEEL THAT THEY ARE NOT BEING DISCRIMINATED AND IGNORED WHILE
THEY HAVE BEEN DISCRIMINATED BY THE FINANCIAL INSTITUTIONS AND OTHERS.
OUR GOVERNMENT PASSES LAWS THAT ARE MEANT TO BE BENEFICIAL TO ALL THE
PEOPLE OF THE UNITED STATES. THESE LAWS TAKE INTO ACCOUNT THE RIGHTS AND
BENEFITS THAT ARE GUARANTEED UNDER THE CONSTITUTION OF THE UNITED
STATES. FEDERAL LAWS MUST NOT BE VIOLATED BY ANY UNPRINCIPLED
INSTITUTIONS, ESPECIALLY THOSE THAT RECEIVE FEDERAL AND OTHER PUBLIC
FUNDING. THIS COURT HAS THE AUTHORITY AND POWER TO UPHOLD ALL OUR
RIGHTS FOR EVERYONE. THIS IS THE BUSINESS OF ADMINISTRATION OF JUSTICE.

NO ONE PERSON OR OFFICIAL GET TO CHOOSE WHO CAN BENEFIT FROM THE
CONSTITUTIONAL LAWS AS AN AMERICAN CITIZEN, JUSTICE IS FOR ALL!
WHEN YOU HAVE EVIDENCE TO SUPPORT YOUR COMPLAINT, THE COURT IS
OBLIGATED TO CONSIDER, EXAMIN, AND SHOW IN THEIR FINDINGS OF FACT HOW
IT PROVES OR DON'T PROVE YOUR COMPLAINT. THIS SHOULD BE INCLUDED IN THE
FINDING OF FACT, EVIDENCE IS THE RULE OF LAW, APART OF OUR CONSTITUTION,
AND OUR DEMOCRACY.
PLEASE SEE MY APPENDIX OF EVIDENCE.
ALL EXCLUDES NO AMERICAN CITIZEN, BUT INCLUDES ALL, ME TOO!
MANY PEOPLE HAS SUFFERED, AND WILL SUFFER FROM FINANCIAL LOSS
ESPECIALLY BECAUSE OF THE PANDEMIC. THEIR HOMES MAY BE IN JEOPARDY OF
FORECLOSURE. THE GOVERNMENT FEDERAL PROGRAMS ARE CREATED TO
PRESERVE THE AMERICAN DREAM OF BUYING OR PRESERVING HOME OWNERSHIP.
THESE BANKS CAN NOT CONTINUE TO VIOLATE THE GUIDELINES POLICIES,
PROCEDURES THAT THEY ARE OBLIGATED AND ENTRUSTED TO FOLLOW TO
PRESERVE THE PRIVILEGE OF HOMEOWNERSHIP FOR THE AMERICAN PEOPLE
AND THEIR FAMILIES.

CONCLUSION
I’M RESPECTFULLY REQUEST THIS COURT TO HEAR THIS COMPLAINT
BECAUSE JUSTICE WHEN THE CONSTITUTION LAWS ARE NOT APPLIED
EQUALLY TO ALL, EQUAL RIGHTS.
I HAVE A CONSTITUTIONAL RIGHT TO BRING FORTH THIS LAWSUIT, TO SUE FOR
DAMAGES, AND TO BRING FORTH MY EVIDENCE AND RECEIVE FAIR AND IMPARTIAL
TREATMENT.
I HAVE A RIGHT TO RECEIVE THE SAME RESPECT AS PRO SE LIGENT AS WELLS
FARGO LAWYERS, AND ANY OTHER LAWYERS IN THE COURTS AS PRO SE.
THE FINDINGS OF THE DISTRICT COURT WAS MADE WITHOUT CONSIDERING MY
EVIDENCE JUSTICE WAS NOT SERVED.
THE FINDING OF THE APPELLATE WAS MADE WITHOUT MY EVIDENCE, JUSTICE
AND FAIRNESS WAS NOT ADMINISTERED.
MY LAWYERS AS OFFICERS OF THE COURT CAUSED FRAUD ON THE COURT BY NOT
PRESENTING AND ARGUING MY VITAL EVIDENCE THAT PROVED MY COMPLAINT
SHOULD NOT HAVE BEEN DISMISSED.
THE APPELLATE COURT’ CAME TO THEIR FINDINGS OF FACTS WITHOUT MY EVIDENCE
THREREFOR JUSTICE WAS NOT SERVICE FINDING.
EVIDENCE IS THE RULE OF LAW IT IS THE CONSTITUTION AND OUR DEMOCRACY.
CONFLICTING DECISIONS OF FEDERAL COURTS MUST BE RESOLVED.
FRAUD ON THE COURT VOIDS ALL JUDGEMENTS OF THE COURTS.
PLEASE SEE APENDIX FOR ALL MY EVIDENCE ON RECORD SUBMITTED TO THE
LOWER COURTS.
FOR ALL THE ABOVE REASONS THIS PETITION FOR WRIT OF CERTIORARI SHOULD BE
GRANTED AND REVERSE THE DECISION OF THE APPELLATE COURT.

